AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

    TRIBAL VICTIM ASSISTANCE GRANT

            AWARDED TO THE

   SOBOBA BAND OF LUISEÑO INDIANS

        SAN JACINTO, CALIFORNIA




       U.S. Department of Justice

     Office of the Inspector General

              Audit Division




      Audit Report GR-90-14-002

              April 2014

           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

               TRIBAL VICTIM ASSISTANCE GRANT

                       AWARDED TO THE

              SOBOBA BAND OF LUISEÑO INDIANS

                   SAN JACINTO, CALIFORNIA


                           EXECUTIVE SUMMARY


       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of a Tribal Victim Assistance Grant,
2003-VF-GX-0010, in the amount of $593,175 awarded by the Office of Justice
Programs (OJP), Office for Victims of Crime to the Soboba Band of Luiseño Indians
(Soboba), San Jacinto, California. The purpose of the grant was to assist Soboba in
planning and implementing a 3-year program to improve its ability to provide
services to victims of crimes, such as child abuse, homicide, elder abuse, driving
while intoxicated, and gang violence. As of the grant end date on August 31, 2007,
Soboba had expended $589,535 (99 percent); OJP de-obligated the remaining
balance of $3,640.

Audit Results

       The purpose of our audit was to determine whether costs claimed under OJP
Grant 2003-VF-GX-0010 were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the grants.
The objective of our audit was to review performance in the following areas:
(1) internal control environment; (2) drawdowns; (3) program income;
(4) expenditures including payroll, fringe benefits, indirect costs, and accountable
property; (5) matching; (6) budget management; (7) monitoring of sub-recipients
and contractors; (8) reporting; (9) award requirements; (10) program performance
and accomplishments; and (11) post end date activity. We determined that
program income, indirect costs, and monitoring of sub-recipients and contractors
were not applicable to the grant.

        As a result of our audit we found that the grantee complied with
requirements related to budget management and post end date activity. However,
we found weaknesses in the areas of expenditures, matching, reporting, and
program performance and accomplishments. Specifically, we found that Soboba
failed to maintain adequate support related to its performance and accomplishment
of grant objectives. Because performance-related records were incomplete and
commingled with other federal grant records, we were unable to determine whether
Soboba accomplished its grant objectives. Therefore, we questioned the total
amount that Soboba drew down, $589,535. Those questioned drawdowns include
$330,556 in inadequately supported salary and fringe benefits for two employees
for which Soboba failed to maintain semi-annual certifications as required. In our
review of Soboba’s matching funds and expenditures, we found $3,229 in grant
expenditures lacked proper approval and support ($2,170 pertained to a timecard
without supervisory approval and $1,059 in travel expenses lacked adequate
support), and $184,694 in matching funds were inadequately supported and were
not traceable to the accounting records. Furthermore, we found that three Progress
Reports were submitted late, one being 169 days late, and three Progress Reports
contained inaccurate data regarding the number of victims served and included
unsupported data regarding the number of volunteers hours provided. Finally,
Soboba submitted one Financial Status 311 days late and four reports were
inaccurate.

       These items are discussed in detail in the Findings and Recommendations
section of the report. Our report contains six recommendations to OJP. Our audit
objective, scope, and methodology are discussed in Appendix I. Our Schedule of
Dollar-Related findings is located in Appendix II.

       We have discussed the results of our audit with Soboba officials and have
included their comments in the report, as applicable. In addition, we requested
from Soboba and OJP written responses to a draft copy of our audit report. We
received those responses and they are found in Appendices III and IV, respectively.
Our analysis of those responses and the status of the recommendations are found
in Appendix V.




                                       - ii –
                                    TABLE OF CONTENTS


INTRODUCTION ..........................................................................................1



        Background.......................................................................................... 2

        OIG Audit Approach .............................................................................. 2



FINDINGS AND RECOMMENDATIONS ..........................................................4



        Internal Control Environment ................................................................. 4

        Drawdowns .......................................................................................... 5

        Expenditures ........................................................................................ 6

        Matching.............................................................................................. 8

        Budget Management ............................................................................. 9

        Reporting............................................................................................. 9

        Additional Award Requirements ............................................................ 12

        Program Performance and Accomplishments .......................................... 12

        Post End Date Activity ......................................................................... 14

        Conclusion ......................................................................................... 14

        Recommendations .............................................................................. 15


APPENDICES:

I.	     OBJECTIVE, SCOPE, AND METHODOLOGY......................................... 16

II.	    SCHEDULE OF DOLLAR-RELATED FINDINGS..................................... 18

III.	   GRANTEE RESPONSE ........................................................................ 19

IV.	    OJP RESPONSE TO THE DRAFT REPORT............................................ 21

V.	     OFFICE OF THE INSPECTOR GENERALS ANALYSIS AND

        SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ............ 25

               AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

                   TRIBAL VICTIM ASSISTANCE GRANT

                           AWARDED TO THE

                  SOBOBA BAND OF LUISEÑO INDIANS

                       SAN JACINTO, CALIFORNIA


                                     INTRODUCTION


       The U.S. Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of a Tribal Victim Assistance Grant
2003-VF-GX-0010, in the amount of $593,175 awarded by the Office of Justice
Programs (OJP), Office for Victims of Crime (OVC) to the Soboba Band of Luiseño
Indians (Soboba), San Jacinto, California. The purpose of the grant was to assist
Soboba in planning and implementing a 3-year program to improve its ability to
provide services to victims of crimes, such as child abuse, homicide, elder abuse,
driving while intoxicated, and gang violence. As of the grant end date on
August 31, 2007, Soboba had expended $589,535 (99 percent); OJP de-obligated
the remaining balance of $3,640.

                EXHIBIT 1: OJP TRIBAL VICTIM ASSISTANCE GRANT

                             AWARDED TO SOBOBA

                                           AWARD             AWARD
             GRANT AWARD NUMBER                                      1      AWARD AMOUNT
                                         START DATE         END DATE

               2003-VF-GX-0010            09/01/03           08/31/04          $   197,725

             Supplemental Award 1         09/01/03           08/31/05              197,725

             Supplemental Award 2         09/01/03           08/31/07              197,725

           Award Total                                                         $ 593,175

           Source: OJP


       The purpose of our audit was to determine whether costs claimed under
grant 2003-VF-GX-0010 were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the grant(s).
The objective of our audit was to review performance in the following areas:
(1) internal control environment; (2) drawdowns; (3) program income;
(4) expenditures including payroll, fringe benefits, indirect costs, and accountable
property; (5) matching; (6) budget management; (7) monitoring of sub-recipients
and contractors; (8) reporting; (9) award requirements; (10) program performance
and accomplishments; and (11) post end date activity. We determined that
program income, indirect costs, and monitoring of sub-recipients and contractors
were not applicable to the grant.

       1
          The Award End Date includes all time extensions that were approved by the Office for
Victims of Crime.
Background

       Soboba is located at the base of the San Jacinto Mountains bordering the City
of San Jacinto, California, which is approximately 85 miles east of Los Angeles,
California. On June 19, 1883, approximately 3,172 acres were ordered set aside to
establish the Soboba Indian Reservation for the permanent occupation and use of
the Soboba people. The reservation today encompasses nearly 7,000 acres, 400 of
which are devoted to residential use. The Soboba Band has a current enrollment of
approximately 1,200 tribal members, who are governed by an elected tribal council
that consists of 5 tribal members.

       OJP’s mission is to increase public safety and improve the fair administration
of justice through innovative leadership and programs. OVC’s purpose is to assist
crime victims and to provide leadership in changing attitudes, policies, and
practices to promote justice and healing for all victims of crime.

OIG Audit Approach

       We tested Soboba’s compliance with what we consider to be the most
important conditions of the grant awards. Unless otherwise stated in our report,
the criteria we audited against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, and Office of Management and Budget
(OMB) Circulars. Specifically, we tested:

      •	 Internal Control Environment – to determine whether the internal
         controls in place for the processing and payment of funds were adequate
         to safeguard the funds awarded to Soboba and ensure compliance with
         the terms and conditions of the grants.

      •	 Drawdowns – to determine whether drawdowns were adequately
         supported and if Soboba was managing receipts in accordance with
         federal requirements.

      •	 Expenditures – to determine whether costs charged to the grant,
         including payroll and fringe benefits, were accurate, adequately
         supported, allowable, reasonable, and allocable. In addition, we tested
         expenditures related to the purchase of accountable property and
         equipment to determine whether Soboba accurately recorded
         expenditures in its accounting system.

      •	 Matching – to determine whether Soboba provided its match in
         accordance with the award documents.

      •	 Budget Management – to determine whether there were deviations
         between the amounts budgeted and the actual costs for each category.




                                        -2­
      •	 Reports – to determine if the required financial and programmatic
         reports were submitted on time and accurately reflected grant activity.

      •	 Additional Award Requirements – to determine whether Soboba
         complied with award guidelines, special conditions, and solicitation
         criteria.

      •	 Program Performance and Accomplishments – to determine whether
         Soboba made a reasonable effort to accomplish stated objectives.

      •	 Post End Date Activity – to determine whether Soboba complied with
         post end date award requirements.

     The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. Our audit objective, scope, and
methodology are discussed in Appendix I.

       We discussed the results of our audit with Soboba officials and have included
their comments in the report, as applicable. In addition, we requested from Soboba
and OJP written responses to a draft copy of our audit report. We received those
responses and they are found in Appendices III and IV, respectively. Our analysis
of those responses and the status of the recommendations are found in Appendix V.




                                       -3­
                 FINDINGS AND RECOMMENDATIONS


      We found weaknesses in the areas of expenditures, matching,
      reporting, and program performance and accomplishments. We
      questioned $589,535 related to program performance records which
      were incomplete and commingled with other federal grant records, and
      therefore, insufficient for us to determine whether Soboba
      accomplished its grant objectives. Based on records provided by the
      project director, we were unable to confirm that the services were
      performed solely for the benefit of the grant. We determined that
      Soboba did not appropriately record or maintain verifiable records to
      support the $184,694 of in-kind match it reported. Additionally, we
      found $2,170 in salary expenditures, which did not have supervisory
      approval, $330,556 in inadequately supported salary expenditures for
      which Soboba failed to maintain semi-annual certifications as required,
      and $1,059 in travel expenditures which lacked adequate support.
      One Financial Status Report was late by 311 days and four were
      inaccurate. Three Progress Reports were submitted late, one being
      169 days late. In addition, three Progress Reports included inaccurate
      victim data and inadequately supported volunteer hours.

Internal Control Environment

       We reviewed Soboba’s policies and procedures, Single Audit Report, and
financial management system to assess its risk of noncompliance with laws,
regulations, guidelines, terms and conditions of the grant. We also interviewed
individuals from Soboba’s grant management, accounting, and finance staff
regarding internal controls and processes related to payroll, purchasing, and
accounts payable functions. Finally, we observed the financial management system
taken as a whole to further assess risk.

       Our review of any potential internal control issues disclosed in the Single
Audit Report, or found in our review of Soboba’s financial management system, are
discussed below in the Single Audit and Financial Management sections,
respectively. In addition, we reviewed Soboba’s accounting and administration
policies, interviewed Soboba’s Chief Financial Officer, and observed Soboba’s
disbursement procedures with accounting staff. As a result, we determined that
Soboba adequately segregated duties, and tracked grant receipts and non-
personnel expenditures with the exception of in-kind match. For the personnel and
in-kind match expenditures, we found that Soboba’s internal controls were
insufficient to ensure that Soboba could support these transactions. We discuss
both the payroll and in-kind match lack of support in the Personnel and Matching
sections of this report. With the exception of the issues noted above, we
determined that the internal controls in place for the processing and payment of
funds were adequate to safeguard grant funds and ensure compliance with grant
terms and conditions.




                                       -4­
Single Audit

        According to OMB Circular A-133, non-federal entities that expend $500,000
or more in federal awards in a year shall have a Single Audit conducted. At the
start of our fieldwork, the most recent Single Audit Report available for Soboba was
for fiscal year (FY) 2009. We reviewed Soboba’s FY 2009 Single Audit Report and
found that the independent auditors had issued an unqualified opinion with respect
to the Federal Grants Fund of the Tribe. 2

Financial Management System

       The OJP Financial Guide requires that all grant fund recipients establish and
maintain accounting systems and financial records to accurately account for funds
awarded to them. This requirement includes adequate maintenance of financial
data to record and report on the receipt, obligation, and expenditure of grant funds.
Furthermore, the Guide stipulates that grantees must account for each award
separately and may not commingle grant funds.

        In our review of Soboba’s financial management system, we found that
Soboba changed accounting systems during the performance period of the grant.
Initially, Soboba used an accounting system called Peachtree before migrating
grant transaction data from Peachtree to a new system called Navision at the end
of December 2005. Since all financial data for the grant had been migrated, we
focused our review on the current Navision accounting system in place.

       Based on our overall review of grant-related transactions that were recorded
in Navision, we found that Soboba separately tracked grant-related transactions
(receipts and expenditures) from all other funding. Further, we found that Soboba
accurately accounted for grant-related receipts and expenditures within its
accounting system, with one exception. Soboba failed to record a $184,694 in-kind
match in the grant account. Therefore, we recommend that OJP require Soboba to
establish appropriate internal controls that ensure Soboba’s grant accounting
records reflect all grant-related activity, including in-kind matches.

Drawdowns

       According to the OJP Financial Guide, grant recipients should request funds
based upon immediate disbursement or reimbursement needs. Specifically,
recipients should time their drawdown requests to ensure that federal cash-on-hand
is the minimum needed for disbursements made within 10 days.



       2
            Soboba’s audited financial statements only presented Soboba’s Federal Grants Fund and it
did not represent the financial position of the Soboba Band of Luiseno Indians as a whole. The Federal
Grants Fund is a special revenue fund of the Soboba Band of Luiseno Indians, accounts for all
activities of Soboba which are funded solely or partially from federal and state awards.




                                                -5­
      Soboba’s Chief Financial Officer stated that grant funds were drawn down on
a reimbursement basis. Based on our review, we found that Soboba drew down
funds, generally on a reimbursement basis, and adhered to the Guide’s federal
cash-on-hand requirement with one exception. The drawdown of $2,394 was 18
days in advance. Given that all other drawdowns in excess of expenditures were
found to have been disbursed within 10 days of the drawdown date, we do not take
exception to this one occurrence where Soboba’s advance slightly exceeded the
10-day requirement.

Expenditures

      As of the grant end date on August 31, 2007, Soboba expended a total of
$589,535 on grant-related expenses. The expenditures were comprised of
personnel, fringe benefits, accountable property, travel, supplies, and other costs. 3

        We selected a non-statistical sample of 50 non-personnel transactions
totaling $19,396 (3 percent of the total expenditures) in order to determine if costs
charged to the grant were allowable, properly authorized, adequately supported,
and in compliance with grant terms and conditions. The expenditures we selected
included travel, supplies, consulting, and other expenditures. We reviewed
supporting documentation including purchase orders, invoices, receipts, and check
copies. Twenty five sample transactions were selected from the highest dollar
transactions in the universe and the remaining sample transactions were
judgmentally selected. During the course of our testing, we found unsupported
travel charges totaling $1,059. According to the Uniform Administrative
Requirements for State and Local Governments, C.F.R. Title 28 Part 66, accounting
records must be supported by such source documentation as cancelled checks, paid
bills, payroll records, time and attendance records, and contract and sub-grant
award documents. Based on our testing, we found that Soboba charged to the
grant airfare that lacked authorization and was inadequately supported. As a
result, we questioned $1,059 in travel expenses.

Personnel

       We selected a judgmental sample of two non-consecutive pay periods for
testing, which included salaries and fringe benefit expenditures totaling $11,700.
We reviewed supporting documentation, such as time and attendance records, to
determine if the positions paid with grant funds appeared reasonable within the
stated intent of the program, was consistent with the OJP-approved budget, and if
the salary and fringe benefit expenditures were adequately supported.




       3
          Based on Soboba’s grant-related accounting records, we found that excluding accruals and
reversals one grant-related transaction for less than five dollars was recorded between the grant end
date of August 31, 2007, and the start of our audit in July 2011. No other transactions occurred
during this time period.




                                                -6­
       We obtained a list of employees paid using grant funds from the Chief
Financial Officer. We compared the list of personnel working on grant-related
activity to the approved positions in the OJP-approved grant budget. We
determined that the positions were within the intent of the program and were
consistent with the approved budget. We reviewed Soboba’s payroll records and
supporting timecards and found that one timecard was not properly authorized.
Additionally, we noted that Soboba did not maintain periodic certifications for two
employees tasked solely to the grant. We discuss in detail each of these findings
and related recommendations below.

       According to the Cost Principles for State, Local, and Indian Tribal
Governments, 2 C.F.R. 225, charges made to federal awards for salaries and wages
must be based on payroll records maintained in accordance with the generally
accepted practice of the organization and the charges must be approved by a
responsible official. A Soboba official told us that Soboba’s practice included
requiring supervisory approval of employee time. While five of the six timecards we
tested contained supervisory approval, one timecard lacked a supervisory
signature. As a result, we questioned the $2,170 associated with the unsupported
timecard.

        Furthermore, 2 C.F.R. 225 requires grantees to complete periodic
certifications for its employees that are tasked solely to a single program and that
these certifications need to be prepared at least semi-annually and validated by a
direct supervisor with knowledge of the work being performed. During our review
of payroll records, we found two employees tasked solely to the OJP grant. We
reviewed the timecards for these employees and found that Soboba did not
consistently identify the project to which the employees’ time was allocated.
Additionally the timecards did not confirm whether the employees worked solely on
that program. As a result, we questioned $330,556 in salary and associated fringe
for the two employees as being inadequately supported because Soboba failed to
maintain periodic certifications as required. Also, we recommend that OJP ensure
that Soboba strengthens its internal controls related to payroll expenditures to
make sure that such charges are adequately supported and are periodically
certified, as required.

Accountable Property

       According to the OJP Financial Guide, property acquired with grant funds
should be used for the purposes stated in the grant application. Further, grant
recipients must maintain records on the source of property items that were
acquired using grant funds. Soboba had an accountable property policy that
defined fixed assets as equipment with a value of $1,000 or more and a useful life
of 2 years or more. There were no transactions that included property purchases
that met Soboba’s fixed asset criteria stated above.




                                        -7­
Matching

       28 C.F.R. Part 66 requires that costs and contributions counting towards
satisfying a cost sharing or matching requirement must be verifiable from the
records of grantees and subgrantee or cost type contractors. These records must
show how the value placed on third party in-kind contributions was derived. To the
extent feasible, volunteer services must be supported by the same methods that
the organization uses to support the allocability of regular personnel costs.
Additionally, match amounts should not be: (1) counted towards other federal
costs-sharing requirements, (2) financed by program income, or (3) borne by other
federal grants (except as provided by federal statute). The full matching share of
costs provided must be reported to OJP at the end of the grant period. If the
matching share is not reported, OJP will assume the recipient did not meet the
required match and will initiate collection of a cash match from the recipient.

       According to the solicitation for the grant, Soboba was required to provide an
in-kind match of 10 percent for the first $197,725, 15 percent for the first
continuation award of $197,725, and 25 percent for the second continuation award
of $197,725. The solicitation provides that the match may be met by either cash or
in-kind contributions. OJP determined that Soboba was required to provide
$122,770 of matching funds or in-kind contributions to meet the minimum match
requirement. 4 Upon completion of the grant, OJP’s Office of the Chief Financial
Officer (OCFO) noted that Soboba’s budgeted match amount of $239,800 exceeded
the minimum requirement of $122,770 and should be reduced. OJP’s OCFO then
determined that the match requirement would be reduced to the $184,694 of in-
kind match reported by Soboba in its final FSR for the grant. We reviewed the
adjustment by OJP’s OCFO and accepted the $184,694 amount, which exceeds the
minimum requirement of $122,770, as the final approved match requirement.

       During our audit Soboba officials provided to us a narrative describing the
amounts and types of match claimed. We also received documentation in support
of the match from Indian Child Welfare Consortium (ICWC), which indicated it
donated its services to Soboba and Soboba, in turn, counted these services as an
in-kind match for the grant. 5 The documentation provided in support of the
claimed in-kind match was insufficient to enable us to verify the expenditure and
trace it to Soboba’s official accounting records. The documentation provided also
lacked the details necessary to confirm whether the expenditures claimed as
supporting the in-kind match were: (1) counted towards other federal costs­

        4
          OJP calculated match requirements for this award by dividing the federal funds approved by
the federal percentage, and multiplying the result by the match percentage required. For example,
OJP calculated Soboba’s first year match requirement of $21,969 by dividing the $197,725 award by
the federal percentage (90 percent) and multiplying the result by the match requirement (10 percent).

       5
          Indian Child Welfare Consortium also identifies itself as Indian Child and Family Services.
The legal name identified on the organizations IRS form 990 is Indian Child Welfare Consortium.
Therefore, to maintain consistency we refer to the organization by its legal name, Indian Child Welfare
Consortium, throughout the report.




                                                -8­
sharing requirements, (2) financed by program income, or (3) borne by other
federal funds (with the exception of Bureau of Indian Affairs funds). Additionally,
Soboba did not provide us with adequate information to allow us to verify the
regular rate of pay and hours associated with labor (donated services) that it
contributed to the grant. Therefore, we questioned the in-kind match of $184,694
as being inadequately supported, and based on this finding, we do not consider
Soboba to have met its match requirement.

Budget Management

       The OJP Financial Guide requires prior approval from the awarding agency if
the movement of dollars between budget categories exceeds 10 percent of the total
award amount if the total award amount is over $100,000. Based on our review of
the award package and grant solicitation, we determined that OJP Grant exceeded
the $100,000 threshold and was subject to the 10 percent rule. Our analysis of the
budget as compared to actual expenditures found that there were no budget
deviations that required OJP approval.

Reporting

       According to the OJP Financial Guide, award recipients are required to submit
quarterly Financial Status Reports (FSR) and semi-annual Progress Reports. These
reports describe the status of funds, compare actual accomplishments to the
objectives of the grant, and report other pertinent information. We reviewed the
FSRs and Progress Reports submitted by Soboba to determine whether each report
was accurate and submitted in a timely manner. We found that Soboba submitted
one FSR late and four FSRs were inaccurate. Also, Soboba did not submit all of its
Progress Reports in a timely manner and some of the reports submitted contained
errors. We discuss the results of our testing in more detail below.

Financial Status Reports

       According to the OJP Financial Guide, the quarterly FSRs are due no later
than 45 days after the end of each quarter, with the final FSR due 120 days after
the grant end date. We reviewed the four most recent FSRs that Soboba submitted
to OJP for the grant to determine if Soboba submitted these reports on time. We
found that Soboba submitted three reports in a timely manner and submitted one
late by 311 days. A Soboba official stated that the late report was initially delayed
by personnel who are no longer employed by Soboba and then further delayed by
adjustments that Soboba made to its FY 2007 grant-related accounting records.




                                        -9­
                EXHIBIT 2: FINANCIAL STATUS REPORT HISTORY

                           GRANT 2003-VF-GX-0010

       REPORT                                 REPORT            DATE              DAYS
        NO.         REPORTING PERIOD         DUE DATE         SUBMITTED           LATE
          14       10/01/06 - 12/31/06       02/14/07         01/18/07             0

          15       01/01/07 - 03/31/07       05/15/07         04/12/07             0

          16       04/01/07 - 06/30/07       08/14/07         07/16/07             0

          17       07/01/07 - 09/30/07       12/29/07         11/04/08            311
     Source: OIG analysis of FSRs

       We also reviewed each FSR to determine whether they contained accurate
financial information related to actual expenditures for the award. According to the
OJP Financial Guide, award recipients must report program outlays and revenue on
a cash or accrual basis in accordance with their accounting system. In our review
of the four most recent FSRs submitted for the grant, we compared the FSRs to
Soboba’s grant accounting records. As a result, we found the four FSRs to be
inaccurate. Exhibit 3 shows the discrepancies between the FSRs that Soboba
submitted and its grant-related accounting records.

    EXHIBIT 3: ACCURACY OF SOBOBA’S FINANCIAL STATUS REPORTS

                     GRANT 2003-VF-GX-0010

                                                                                   DIFFERENCE
                                                                                  BETWEEN FSRS
                                                                                         AND
  REPORT                                  EXPENDITURES        GRANT-RELATED        ACCOUNTING
   NO.           REPORTING PERIOD        REPORTED ON FSR       EXPENDITURES         RECORDS
     14         10/01/06 - 12/31/06              $ 50,684           $ 42,228            ($ 8,456)

     15         01/01/07 - 03/31/07                  42,476           38,812            (   3,664)

     16         04/01/07 - 06/30/07                  41,183           35,741            (   5,442)

     17         07/01/07 - 09/30/07                      0                4,315                4,315
 Source: OIG analysis of OVC data and Soboba’s accounting records


      Based on our review, we recommend that OJP ensure that Soboba submits
accurate financial reports on time.

Progress Reports

       According to OJP Financial Guide, Progress Reports are due semiannually for
discretionary awards and annually for block or formula awards. Soboba was
required to submit the Progress Reports semi-annually within 30 days of the end of
the reporting period, with the final report due 120 days following the end of
the award. We reviewed the most recent nine Progress Reports that Soboba
submitted to OJP to determine if the reports were submitted on time. We also




                                            - 10 ­
reviewed the last full year of progress reports submitted to OJP for accuracy. We
found that three of the nine Progress Reports reviewed were not submitted in a
timely manner and all three reports reviewed for accuracy contained information
which was either inaccurate or lacked sufficient support.

                        EXHIBIT 4: PROGRESS REPORT HISTORY

                               GRANT 2003-VF-GX-0010

            REPORT                                    REPORT           DATE           DAYS
             NO.          REPORTING PERIOD           DUE DATE        SUBMITTED        LATE

               1         07/01/03 - 12/31/03         01/30/04         02/23/04         24

               2         01/01/04 - 06/30/04         07/30/04         07/22/04          0

               3         07/01/04 - 12/31/04         01/30/05         01/04/05          0

               4         01/01/05 - 06/30/05         07/30/05         07/19/05          0

               5         07/01/05 - 12/31/05         01/30/06         12/28/05          0

               6         01/01/06 - 06/30/06         07/30/06         12/19/06        142

               7         07/01/06 - 12/31/06         01/30/07         07/18/07        169

               8         01/01/07 - 06/30/07         07/30/07         07/18/07          0

               9         07/01/07 - 08/31/07         12/29/07         09/02/07          0
           Source: OIG data analysis of OVC data 6

       The OJP Financial Guide states that “the performance report will provide
information on the effect the Federal funds have had on services to crime
victims . . . and serve as a basis for information prepared for the Report to
Congress on the Victims of Crime Act (VOCA).” Performance measures from the
grant solicitation included: the number of victims served and type of victimization,
the number of staff supported by Victim Assistance in Indian Country funds, the
number of volunteer hours, the number of publications produced, the number of
training workshops for law enforcement, the type of services provided, and
progress on goals and objectives identified by the program. 7 We reviewed
Soboba’s Progress Reports to determine if the reports accurately reflected grant
activity and accomplishments. We found that three Progress Reports with periods
ending June 30, 2006, through the period ending June 30, 2007, accurately
reflected grant documentation with two exceptions. Specifically, we found that the
values reported for Victims Served did not match the support documentation.

       6
         OVC data showed that Soboba submitted the report late by 169 days, for the period ending
12/31/06, at the same time as the report submitted for the period ending 06/30/07.

       7
          Victim Assistance in Indian Country is a discretionary grant program funded by OVC. Its
primary goal is to create permanent, accessible, and responsive victim assistance services on Indian
reservations with federally recognized tribes governed by Federal criminal justice jurisdiction.




                                                - 11 ­
We also found that volunteer hours reported were not supported by periodic
certifications. However, we reviewed subsequent actions taken by Soboba and
determined that Soboba had taken actions necessary actions to remedy this
concern. Specifically, Soboba had developed new procedures that require
                                                                           8
submission of timely, accurate, and adequately supported Progress Reports.
Therefore, we no longer consider this to be a reportable condition.

Additional Award Requirements

       We reviewed Soboba’s compliance with specific program requirements in the
grant solicitation as well as special conditions included in its grant award
documentation. We determined that Soboba generally complied with grant
requirements and conditions.

Program Performance and Accomplishments

       According to the grant award documents, the purpose of the grant was to
implement a 3-year program to improve Soboba’s ability to provide services to
victims of crimes. Specifically, the program would offer services including
counseling, referrals, emergency services, court accompaniment, and assistance
obtaining victim compensation. To accomplish these goals, the grant application
stated for the first two award periods that Soboba will establish a “Family Resource
Room” where services could be provided directly to victims where they live.
According to the grant application, before Soboba received the award, Soboba did
not provide such services to its population and neither were there other service
providers who could provide such local services to the Tribe.

       Soboba planned for program performance to be evaluated through the use of
pre- and post-client assessment forms by a volunteer researcher with a Doctorate’s
degree in the area of educational psychology and statistics and research design.
The grant application states that the grant would only fund activities eligible under
Tribal Victims Assistance and Victims of Crime Assistance guidance as outlined in
the solicitation to include: mental health assistance; advocacy on behalf of crime
victims; training for law enforcement; assistance to victim’s seeking crime
compensation benefits; supervision as it directly relates to serving crime victims;
and the preparation, publication, and distribution of materials which explain
services offered to victims of crime. The grant narrative stated that grant activities,
including maintenance of evaluation data, would be carried out by the project
director and two full time employees described as “Family Allies”.



       8
           U.S. Department of Justice Office of the Inspector General (OIG), Audit of the Office on
Violence Against Women (OVW) Grant Awarded to the Soboba Band of Luiseño Indians San Jacinto,
California, Audit Report GR-90-13-006 (August 2013). This report contains a recommendation
requiring that OVW ensure that Soboba develops procedures that require submission of timely,
accurate, and adequately supported Progress Reports. As a result, Soboba developed the necessary
procedures to address the deficiency, and in February 2014 the OIG closed the recommendation.




                                               - 12 ­
       To evaluate program performance, we reviewed progress reports, service
logs, case files containing assessment forms, and a self-assessment performed by a
third party. Additionally, we interviewed the project director and the two full time
employees funded by the grant. While we found evidence that publications were
created, training for law enforcement was performed, and mental health and crime
victim services were administered, we were unable to determine whether these
services were provided in full to the appropriate population. We were also unable
to conclude whether all services, claimed as provided, supported the grant
objectives described in the application narrative. Specifically, we found that
60 percent of case files were incomplete as to the maintenance of forms that were
identified in the grant application as necessary to evaluate the program results.
Nine percent of files were found to contain forms associated with other federally
funded grants, and the files did not consistently identify the tribal association of the
client or whether the client was a victim of a crime. 9 Finally, we found that, while
some group and individual services may have been provided on the Soboba
reservation or at the home of a Soboba client, grant-funded personnel primarily
worked from their homes or at the offices of Indian Child Welfare Consortium
(ICWC) located in Temecula, California. The grant application stated that the
program would provide services closer to where Soboba tribe members live and
specifically identifies ICWC, which is located 31 miles from Soboba in Temecula, as
a provider located at an objectionable distance from the reservation.

       To obtain further clarification, we discussed each of our concerns with the
project director. In regard to the completeness of the files, the project director
stated that the missing information was due to staff members being inexperienced
in maintaining documentation pertaining to grant performance. The project director
believed that as staff members gained experience, file maintenance improved.
However, we noted that the percentage of incomplete files was nearly uniform
when we compared the first 71 files created to the last 71 files created.

        With regard to forms relating to other grants being maintained in the Soboba
client files, the Soboba project director confirmed that there was overlap between
the OVC grant and other federally funded programs and clients may have received
services from multiple programs. As discussed previously in our report, the two full
time grant-funded employees tasked with providing these services indicated they
worked on overlapping grant programs and stated that it was unclear in some cases
which services were associated with the OVC grant as opposed to other grants.
Therefore, we determined that time allocated to the Soboba grant by the two full
time employees may have been commingled with work performed for other
federally funded programs. Additionally, we asked the project director why services
were not performed at the Soboba reservation as described in the first two

       9
           A total of 13 files contained forms pertaining to services provided under Department of
Health and Human Services (HHS) award 90CA1732 entitled Cahuilla Tribal Family Resource Room
(Resource Room). The HHS award funded the completion of tasks similar to, and in some cases
identical to, the Soboba grant. These included but were not limited to, creation of a Resource Room
on the Cahuilla reservation, group parenting skills sessions held at the Resource Room, and in-home
parenting sessions.




                                               - 13 ­
grant applications. The project director stated that the grant services were not
performed as agreed upon with OVC, and Soboba was unable to provide an
appropriate workspace. Therefore, ICWC offered to provide office space to aid in
fulfilling the in-kind match requirement.

       Based on the project director’s explanation and our review of relevant
documentation, we concluded that records were insufficient to determine whether
Soboba has made a reasonable effort to accomplish its stated grant objectives.
Additionally, the records which do exist indicate that services may not have been
performed solely for the benefit of the OJP award. Therefore, we question the
entire amount that Soboba drew down on the grant ($589,535) for lack of sufficient
evidence that Soboba accomplished the grant objectives. We also recommend that
OJP ensure that Soboba strengthen its internal controls to make certain that
objectives on future grants are accomplished and that it has the capability to
maintain related evidence and supporting documentation.

Post End Date Activity

       The grant end date was August 31, 2007. We reviewed the post end date
activity for the grant, including submission of the final progress and financial
reports and found no reportable exceptions.

Conclusion

       Based on our audit, we determined that program performance records were
insufficient to determine whether Soboba accomplished its grant objectives.
Additionally, grant records indicate that Soboba commingled its services with other
federally funded programs. Furthermore, we determined that the financial
management system used by Soboba did not provide for adequate record keeping
and reporting of grant-related activities related to its in-kind match. We also found
payroll transactions which were not properly authorized, and that Soboba failed to
maintain semi-annual certifications for its grant-funded personnel. Additionally, we
found $518,479 in grant-related expenditures that were inadequately supported
including costs in categories such as payroll, travel, and matching. Also, one
Financial Status Report was submitted late and four were found to be inaccurate.
Also, three Progress Reports were submitted late and three contained information
which was either inaccurate or lacked sufficient support.




                                       - 14 ­
Recommendations

We recommend that OJP:

   1.	   Make certain that Soboba establishes appropriate internal controls that
         ensure Soboba’s grant accounting records reflect all grant-related activity,
         including in-kind matches.

   2.	   Remedy $589,535 in unsupported questioned costs associated with the
         following issues:

         a.	   Remedy $589,535 for Soboba’s failure to maintain sufficient evidence
               related to its accomplishment of grant objectives.

         b.	   Remedy $330,556 for inadequately supported salary and fringe
               benefits for two full time employees.

         c.	   Remedy $2,170 for inadequately supported payroll expenditures.

         d.	   Remedy $1,059 in travel expenditures which lacked adequate
               support.

   3.	   Ensure that Soboba strengthens its internal controls related to payroll
         expenditures to make sure that such charges are adequately supported
         and are periodically certified, as required

   4.	   Remedy $184,694 in questioned costs pertaining to inadequately

         supported in-kind match.


   5.	   Ensure that Soboba submits accurate financial reports on time.

   6.	   Ensure that Soboba strengthens its internal controls to make certain that
         objectives on future grants are accomplished and that it has the capability
         to maintain related evidence and supporting documentation.




                                       - 15 ­
                                                                               APPENDIX I

                 OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of our audit was to determine whether costs claimed under
grant 2003-VF-GX-0010 were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the grant. The
objective of our audit was to review performance in the following areas:
(1) internal control environment; (2) drawdowns; (3) program income;
(4) expenditures including payroll, fringe benefits, indirect costs, and accountable
property; (5) matching; (6) budget management; (7) monitoring of sub-recipients
and contractors; (8) reporting; (9) award requirements; (10) program performance
and accomplishments; and (11) post end date activity. We determined that,
program income, indirect costs, and monitoring sub-recipients were not applicable
to grant 2003-VF-GX-0010.

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

       Our audit scope included a review period for our audit that focused on, but
was not limited to, the period beginning September 1, 2003, through the grant end
date of August 31, 2007. This audit was completed after we concluded another
audit of Soboba’s Office on Violence Against Women (OVW) grant activities issued
                10
in August 2013.     That audit of Soboba’s OVW grant identified $102,396 in
questioned costs, including $102,396 related to Soboba’s failure to complete OVW
grant objectives before the grant end date.

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria we audit
against are contained in the award documents, Code of Federal Regulations, and
Office of Management and Budget (OMB) Circulars. We reviewed a judgmentally
selected sample of transactions that were recorded in Soboba’s grant related
accounting records. In conducting our audit, we performed sample testing in three
areas: grant expenditures; FSRs; and Progress Reports. We employed a
judgmental sampling design to obtain broad exposure to numerous facets of the
grants reviewed, such as dollar amounts or expenditure category.




       10
           OIG, Audit of Office on Violence Against Women Grant Awarded to the Soboba Band of
Luiseno Indians, San Jacinto, California.




                                             - 16 ­
       We did not test internal controls for Soboba taken as a whole or specifically
for the grant program administered by Soboba. An independent Certified Public
Accountant conducted an audit of Soboba's financial statements. The results of this
audit were reported in the Single Audit Report that accompanied the Independent
Auditors’ Report for the year ending 2009. The Single Audit Report was prepared
under the provisions of OMB Circular A-133. We reviewed the independent
auditor’s assessment to identify control weaknesses and significant noncompliance
issues related to Soboba or the federal programs it was administering, and
assessed the risks of those findings on our audit.

       In addition, we assessed the grantee’s monitoring of sub-recipients;
reviewed the timeliness and accuracy of FSRs, and Progress Reports; and evaluated
performance to grant objectives. However, we did not test the reliability of the
financial management system as a whole, nor did we place reliance on
computerized data or systems in determining whether the transactions we tested
were allowable, supported, and in accordance with applicable laws, regulations, and
guidelines. We also performed limited testing of information obtained from OJP’s
Grants Management System (GMS) and found no discrepancies. We thus have
reasonable confidence in the GMS data for the purposes of our audit. However, the
OIG has not performed tests of the GMS system specifically, and we therefore
cannot definitively attest to the reliability of GMS data.




                                       - 17 ­
                                                                                APPENDIX II

               SCHEDULE OF DOLLAR-RELATED FINDINGS

 QUESTIONED COSTS: 11
                                                                                AMOUNT       PAGE
 Unsupported Costs:
      Unsupported Travel Expenditures                                      $      1,059         6
      Unsupported Payroll                                                  $      2,170         7
      Unsupported Salary and Fringe Benefits                               $    330,556         7
      Unsupported Match Expenditures                                       $    184,694         9
      Unsupported Costs for Performance Claims                             $    589,535        14



 TOTAL QUESTIONED COSTS (GROSS):                                           $ 1,108,014


 Less: Duplicative Questioned Costs 12                                     ($    333,785)


 NET QUESTIONED COST                                                        $ 774,229




       11
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.

       12
           Some costs were questioned for more than one reason. Net questioned costs exclude the
duplicate amount.




                                               - 18 ­
                                                                                                            APPENDIX III


                                                   GRANTEE RESPONSE


                                          Soboba Band of Luiseno Indians
                                          P.O. BOX 487 • SAN JACINTO, CA 92581 • TELEPHONE (951) 654-2765




                                                                 OFFICE OF TRIBAL COUNCIL
            !>'. IIIN' I"   IIl!!J




                                                                March 25. 20 14

Jennifer I3 rookes
C/o David J. Gaschke, Regional Aud it Manage r
U.S. Departmcnt of Just icc
Ollice oftl lC Inspector General
San franci sco Regional Aud it Office
1200 l3ayh ill Drive, Su ite 20 1
San Bruno. CA 94066

Rc: Response to Draft Audit Reporl Dalcd March 6, 201 4 rc: Audi t of the Oflice Ju stice
Programs (OJ1'), Tribal Viclim Assislancc Grant No. 2003-V F-GX -00 10

Enclosed please find the Soboba Band of Luiseno Indians' (So boba) response to the above
rcferenced report recommendations. Each OIG recommendation has been stated with Soboba's
response:

       l.      Make certain that Soboba eSlC/blishes appropriate internal cOlllrols t!tat enSlIre Soboba's
               grant accuwlIil1g records reflect all groll/-related activity, inclllding in-kind matches.

                Response: Conc ur.
                Soboba has implemen lcd practices which will ensure that accounting records reflcct all
                grant relalcd aClivity including in-kind matches.


       2. Remedy S589,535 in UII.\·IIPPofted costs associated with Ille/al/owing issues:
             a. Remedy 5589,535/01" Soboba'sfailllre 10 maintain sl!/Jicielll evidellce felaled to
                 ils accomplishmelll 0/ gral1/ objeclives.
             b. Remedy S330.556/01' illudeq llalely slIpporied salOl)' and/i'inge bel1efilsfor two
                /ul/ time employees.
             c. Remedy 52, 170/01" illadequately slipporied payroll expendilllres.
             d. Remedy 51,059 illiravel expendilllres which lacked adeqllale sllpport.

                       Response: Do not conc ur . Sobo ba mainta ins that is ha s sul'li cie ntl y doc umented the
                       questioned costs stat ed abo w in 2a - d.



R~~ro"sc     IU I)r.,fl Audil Rq"," D,lCd M"feh 6, 20 14   r.
Aoon " r OJI' Gr:llli Nu. 200) .V F·G X..(l(J IO                                                               Page 1




                                                                     - 19 ­
      3. Ensure that Soboba strengthens its inlernal controls related to payroll expenditures to
         make sure that such charges are adequately supported and are periodically certified, as
         required.

             Response: Concur.
             SoOOba has strengthened internal controls related to payroll expenditures to make certain
             that such charges are adequately supported and are periodically certified.


      4. Remedy $184.694 in questioned costs pertaining to inadequately supported in-kind
         match.

             Response: Do not concur.
             SoOOba-maintalns that it adequately supported the in-kind match.

      j.     Ensure that Soboba submits accurate financial reports on time.

             Response: Concur.
             Soboba has implemented practices that ensure accurate financial reports, in addition to
             acquiring new software thai assists in the filing of limely financial reports.


      6. Ensure that Soboba strengthen its internal controls to make certain that objectives on
         future grants are accomplished and Ihal il has the capability (a maimain related evidence
         and supporting documentation.

             Resoonse: Concur in part.
             Soboba concurs it has the internal controls in place to ensure future grant objectives are
             accomplished and the capability to maintain related evidence and supporting
             documentation. However, the strengthening of internal controls is an ongoing process for
             any governmental or organi2ational entity and therefore Soboba will continue to evaluate
             its internal controls as a matter ofpr8Ctice.

Based on the responses above, Soboba has demonstrated reasonable completion of the grant
deliverables for which it is responsible; therefore, no penalty is warranted with regard to this
grant award.

Sincerely,

O__~~71?~
=.;; ~~~o,                        Tribal Chairwoman




~          .. DroII_ Repon 0tIaI_6. 201t rr.
Ju,oIi, otOJP ......   ~   200)·V1'-(lX.QIIO                                                    Page 2




                                                      - 20 ­
                                                                                                       APPENDIX IV

OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE DRAFT
                   AUDIT REPORT
                                                             U.S. Department of Justice

                                                             Office of Justice Programs

                                                            Office ofA udit, Assessment, and Managemenf




    APR      4 2014


   MEMORANDUM TO:                    David 1. Oaschke
                                     Regional Audit Manager
                                     San Francisco Regional Audit Office
                                     Office of the Inspector Generdl


   FROM:                          ctx~J:';~
                                     Acting Director

   SUBJECT:                          Response to the Draft Audit Report, Audit ofthe Office ofJustice
                                     Programs, Tribal Victim Assistance Grant Awarded to the Soboba
                                     Band of Luisefio Indians, San Jacinto, California

   This memorandum is in reference to your correspondence, dated March 6, 2014, transmitting the
   above-referenced draft audit report for the Soboba Band of Luisci'io Indians (Soboba). We
   consider the subject report resolved and request wri tten acceptance of this action from your
   office.

   The dr,ill report contains $ix recommendations and $774,229' in Det questioned costs. 'rbe
   following is the Office of Justice Programs' (OJP) analysis of the draft audit report
   recommendations. For ease of review, the recommendation ~ arc restated in bold and are
   followed by our re~ponse .

   J.      We recommend that OJP make certain that Soboba establishes appropriate internal
           controls that ensure Soboba's grant accounting records rellect all grant-related
           activity, induding in-kind matches.

           OJP agrees with the recommendation. We will coordinate with Soboba to obtain a
           copy of policies and procedures developed and implemented to ensure that al l
           grant-related activity, including in-kind matches, arc reflected in their grant accounting
           records.




   ' Some costs were questioned for more than one reason. Net questioned costs exclude the duplicate amounts.




                                                       - 21 ­
2.   We recommend that O.JP remedy $589,535 in unsupported questioned costs
     associated with the following issues:

     a.      Remedy $589,535 for Soboba's failure to maintain sufficient ev idence related
             to its accomplishment of grant objectives.

     b.      Remedy $330,556 for inadequately supported salary and fringe benefits for
             two full time employees.

     c.      Remedy $2,170 for inadequately supported payroll expenditures.

     d.      Remedy $ 1,059 in travel   e~penditures   which lacked adequate support.

     OJP agrees with the recommendation. We will coordinate with Soboba to remedy the
     questioned eost~ associated with insufficient evidence for grant accomplishment~; and
     inadequate supporting documentation for salary, fringe benefits, and travel expenditures
     charged to grant number 2003-VF-GX·.QOl O.

3.   We recommend that OJP ensure that Soboba strengthens its internal controls
     related to payroll expenditures to make sure that such charges are adequately
     supported and are periodically certified, as reqnired.

     OJP agrees with the re.::ommcndation. We will coordinate with Soboba to obtain a copy
     ofpolicics and procedures implemented to strengthen controls over payroll expenditures,
     to ensure that costs are adequately supported and periodically certified, as required.

4.   We recommend that OJP remedy $184,694 in questioned costs pertaining to
     inadequately supported in-kind match.

     OJP agrees with the recommendation. We will coordinate with Soboba to remedy the
     $184,694 in que~tioned cos!:;, related to insufficiently ~upported matching expenditures.

5.   WE'. recommend tbat OJP p.ns .....e fhat Soboba suhmits ac(".urate fimmcial reports on
     time.

     OJP agrees with the re.::ommendation. We will coordinate with Soboba to obtain a copy
     of policies and procedures developed and implemented to ensure that future Federal
     Financial Reports are accurately prepared. and timely submilted to the Department of
     Justice.




                                          - 22 ­
6.     We recommend tha t OIP ensure tha t Soho ba strengthen its internal controls to
       make certain tha t o bjectives on future gra nts a re a ccomplished a nd that it bas t he
       capability to maintain related evidence a nd supporting documelltation.

       OJP agrees with the recommendation. We will coordinate with SoOOba to obtain a copy
       of policies and procedures developed and implemented to en~ure that documentation
       supporting the accomplishment of goals and objectives is maintained for future grants.

We apprec iate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Joye E. Frost
       Director
       Office for Victims of Crime

       Marilyn Roberts
       Deputy Director
       Office for Victims of Crime

       Robert Cantrall
       Deputy Director
       Office for Victims of Crim e

       Toni Thomas
       Supervisory Socia l Sciences Program Manager
       Office for Victims of Crime

       Delano Foster
       Lead Victims lustice Program Specialist
       Office for Victims of Crime

       Leigh A Benda
       Chief Financial Officer

       Christal McNe il-Wright
       Associate Chief Financial Officer
       Grants Financial Management Division
       Office of the Chief Financial Officer




                                             - 23 ­
cc:   Jerry Conty
      Assistant Chief Financial Officer
      Grants Financial Management Division
      Office of the ChiefFinancial Officer

      Lucy Mungle
      Manager, Evaluation and Oversight Branch
      Grant~ Financial Management Division
      Office of the Chief Financial Officer

      Richard P. Theis
      Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OlP Executive Secretariat
      Control Number 1T201403 10I00839




                                          - 24 ­
                                                                              APPENDIX V

                    OFFICE OF THE INSPECTOR GENERAL

                   ANALYSIS AND SUMMARY OF ACTIONS

                     NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to Soboba and OJP. Soboba’s
and OJP’s responses are incorporated in appendices III and IV of this report,
respectively. The following provides the OIG analysis of the responses and
summary of actions necessary to close the report.

Recommendation Number:

1.	    Resolved. OJP and Soboba concurred with our recommendation that
       Soboba establishes appropriate internal controls that ensure Soboba’s grant
       accounting records reflect all grant-related activity, including in-kind
       matches. OJP stated in its response that it will coordinate with Soboba to
       obtain a copy of policies and procedures developed and implemented to
       ensure that all grant-related activity, including in-kind matches, are reflected
       in their grant accounting records. Soboba stated that it has implemented
       practices that will ensure its accounting records reflect all grant-related
       activity including in-kind matches.

       This recommendation can be closed when we receive evidence that Soboba
       has established appropriate internal controls that ensure Soboba’s grant
       accounting records reflect all grant-related activity, including in-kind
       matches.

2.	    Resolved. OJP concurred with our recommendation to remedy $589,535 in
       unsupported costs associated with Soboba’s failure to maintain sufficient
       evidence related to: its accomplishment of grant objectives ($589,535),
       salary and fringe benefits for two full time employees ($330,556), payroll
       expenditures ($2,170), and travel expenditures ($1,059). 13 OJP stated in its
       response that it will coordinate with Soboba to remedy the questioned costs
       listed above.

       In its response, Soboba stated that it did not concur with our
       recommendation and that it has sufficiently documented the questioned costs
       listed above. In our report, we stated that the program performance records
       we reviewed were incomplete and commingled with other federal grant
       records. Specifically, we found that 60 percent of case files were incomplete
       as to the maintenance of forms that were identified in the grant application
       as necessary to evaluate the program results. Nine percent of files were

       13
           Some costs were questioned for more than one reason. Net questioned costs exclude the
duplicate amount.




                                             - 25 ­
      found to contain forms associated with other federally funded grants, and the
      files did not consistently identify the tribal association of the client or whether
      the client was a victim of a crime. Furthermore, we found that grant-funded
      personnel primarily worked from their homes or at the offices of Indian Child
      Welfare Consortium (ICWC). Conversely, the grant application stated that
      the program would provide services closer to where Soboba tribe members
      live and specifically identifies ICWC, which is located 31 miles from Soboba in
      Temecula, California as a provider located at an objectionable distance from
      the reservation. This information was insufficient for us to determine
      whether Soboba accomplished its grant objectives. Therefore, we questioned
      the entire amount that Soboba drew down on the grant ($589,535).

      For the $330,556 in questioned costs, we found that Soboba did not maintain
      periodic certifications for its employees that are tasked solely to a single
      program as required by 2 C.F.R. 225 Cost Principles for State, Local, and
      Indian Tribal Governments. As a result, we questioned $330,556 in salary
      and associated fringe for the two employees for which periodic certifications
      were not maintained.

      For the $2,170 in questioned costs, we identified one timecard which lacked
      a supervisory signature. Soboba’s policy requires all timecards to be signed
      by a supervisor. As a result we questioned the $2,170 associated with the
      unsupported timecard.

      Finally, for the $1,059 in questioned costs, we found that Soboba charged to
      the grant airfare that lacked authorization and was inadequately supported.
      According to the Uniform Administrative Requirements for State and Local
      Governments, C.F.R. Title 28 Part 66, accounting records must be supported
      by such source documentation as cancelled checks, paid bills, payroll records,
      time and attendance records, and contract and sub-grant award documents.
      As a result, we questioned $1,059 in travel expenses.

      This recommendation can be closed when we receive evidence that Soboba
      has remedied the $589,535 in unsupported costs associated with these
      issues.

3.	   Resolved. OJP and Soboba concurred with our recommendation to ensure
      that Soboba strengthens its internal controls related to payroll expenditures
      to make sure that such charges are adequately supported and are
      periodically certified, as required. OJP stated in its response that it would
      coordinate with Soboba to obtain a copy of policies and procedures
      implemented to strengthen controls over payroll expenditures. Soboba
      advised that it has strengthened internal controls related to payroll
      expenditures to make certain that such charges are adequately supported
      and are periodically certified.




                                        - 26 ­
      This recommendation can be closed when we receive evidence that Soboba
      has strengthened its internal controls related to payroll expenditures to
      ensure that such charges are adequately supported and are periodically
      certified, as required.

4.	   Resolved. OJP concurred with our recommendation to remedy $184,694 in
      questioned costs pertaining to inadequately supported in-kind match. OJP
      stated in its response that it would coordinate with Soboba to remedy the
      questioned costs. In its response, Soboba stated that it did not concur with
      our recommendation and that it adequately supported the in-kind match.

      In our report, we noted that 28 C.F.R. Part 66 requires that costs and
      contributions counting towards satisfying a cost sharing or matching
      requirement be verifiable from the records of grantees and subgrantee or
      cost type contractors. These records must show how the value placed on
      third party in-kind contributions was derived. To the extent feasible,
      volunteer services must be supported by the same methods that the
      organization uses to support the allocability of regular personnel costs.
      Additionally, match amounts should not be: (1) counted towards other
      federal costs-sharing requirements, (2) financed by program income, or
      (3) borne by other federal grants (except as provided by federal statute).

      Based on our review of the documentation that Soboba provided in support
      of the in-kind match, we found it to be insufficient to enable us to verify the
      expenditure and trace it to Soboba’s official accounting records. Specifically,
      the documentation lacked the necessary detail to confirm whether the
      expenditures claimed as supporting the in-kind match were: (1) counted
      towards other federal costs-sharing requirements, (2) financed by program
      income, or (3) borne by other federal funds (with the exception of Bureau of
      Indian Affairs funds). Additionally, Soboba did not provide us with adequate
      information to allow us to verify the regular rate of pay and hours associated
      with labor (donated services) that it contributed to the grant. Therefore, we
      questioned the in-kind match of $184,694 as being inadequately supported,
      and based on this finding, we do not consider Soboba to have met its match
      requirement.

      This recommendation can be closed when we receive, evidence that Soboba
      has remedied the $184,694 in questioned costs pertaining to the
      inadequately supported in-kind match.

5.	   Resolved. OJP and Soboba concurred with our recommendation to ensure
      that Soboba submits accurate financial reports on time. OJP stated in its
      response that it would coordinate with Soboba to obtain a copy of policies
      and procedures developed and implemented to ensure that future financial
      reports are accurately prepared and timely submitted to the Department of
      Justice. Soboba stated in its response that it has implemented practices that




                                       - 27 ­
      ensure accurate financial reports and has acquired new software which
      assists in the timely filing of financial reports.

      This recommendation can be closed when we receive evidence that Soboba
      has implemented practices to ensure that Soboba submits accurate financial
      reports on time.

6.	   Resolved. OJP concurred with our recommendation to ensure that Soboba
      strengthens its internal controls to make certain that objectives on future
      grants are accomplished and that it has the capability to maintain related
      evidence and supporting documentation. OJP stated in its response that it
      would coordinate with Soboba to obtain a copy of policies and procedures
      developed and implemented to ensure that documentation supporting the
      accomplishment of goals and objectives is maintained for future grants. In
      its response, Soboba stated that it partially concurred with our
      recommendation, specifically as it pertains to establishing internal controls to
      ensure that future grant objectives are accomplished and that related
      evidence and supporting documentation is maintained. However, Soboba
      stated that the strengthening of internal controls is an on-going process for
      any governmental or organizational entity and therefore, it will continue to
      evaluate its internal controls as a matter of practice.

      According to our audit, Soboba did not maintain sufficient documentation to
      support the achievement of grant objectives. Soboba planned for program
      performance to be evaluated through the use of pre- and post-client
      assessment forms by a volunteer researcher with a Doctorate’s degree in the
      area of educational psychology and statistics and research design. In our
      report, we stated that the program performance records we reviewed were
      incomplete and commingled with other federal grant records. Specifically,
      we found that 60 percent of case files were incomplete as to the maintenance
      of forms that were identified in the grant application as necessary to evaluate
      the program results. Nine percent of files were found to contain forms
      associated with other federally funded grants, and the files did not
      consistently identify the tribal association of the client or whether the client
      was a victim of a crime.

      To obtain further clarification, we discussed each of our concerns with the
      project director. The project director stated that the missing information was
      due to staff members being inexperienced in maintaining documentation
      pertaining to grant performance. The project director believed that as staff
      members gained experience, file maintenance improved. However, we noted
      that the percentage of incomplete files was nearly uniform when we
      compared the first 71 files created to the last 71 files created.

      Furthermore, we found that grant-funded personnel primarily worked from
      their homes or at the offices of ICWC. Conversely, the grant application
      stated that the program would provide services closer to where Soboba tribe




                                       - 28 ­
members live and specifically identifies ICWC, which is located 31 miles from
Soboba in Temecula, California as a provider located at an objectionable
distance from the reservation.

Finally, the two full time grant-funded employees tasked with providing these
services indicated they worked on overlapping grant programs at another
tribe and stated that it was unclear in some cases which services were
associated with the OVC grant as opposed to other grants. While the
employees were performing both jobs, they commingled information from
the other tribes’ records in amongst Soboba’s records making it that much
more difficult for us to determine if Soboba had achieved their grant
objectives.

Overall, this information contained in these case files was insufficient for us
to determine whether Soboba accomplished its grant objectives.

This recommendation can be closed when we receive, evidence that Soboba
has strengthened its internal controls to make certain that objectives on
future grants are accomplished and that it has the capability to maintain
related evidence and supporting documentation.




                                  - 29 ­
